No. 19-54

 

 

IN THE

Supreme Court of the United States

KAROLYN GIVENS, ET AL.,

Petitioners,
v.

MOUNTAIN VALLEY PIPELINE, LLC,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

BRIEF IN OPPOSITION TO PETITION FOR
WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,536 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 22, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
